                                  Department of the Interior
                                 Office of Inspector General
Audit Report



                        U.S. Fish and Wildlife Service
                         Federal Assistance Grants
                    Administered by the State of Michigan,
                      Department of Natural Resources,
               from October 1, 2002 through September 30, 2004




                 Report No. R-GR-FWS-0010-2005        April 2006
                   United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                                12030 Sunrise Valley Drive, Suite 230
                                       Reston, Virginia 20191



                                                                                     May 1, 2006

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Patti L. Boyd
           Acting Director of External Audits

Subject:   Final Audit Report on the U.S. Fish and Wildlife Service Federal Assistance
           Grants Administered by the State of Michigan, Department of Natural Resources,
           from October 1, 2002, through September 30, 2004 (No. R-GR-FWS-0010-2005)

       This report presents the results of our audit of costs incurred by the State of Michigan,
Department of Natural Resources (Department), under its Federal Assistance grants from the
U.S. Fish and Wildlife Service (FWS). The audit included total reported outlays of
approximately $53.8 million on FWS grants that were open during the State’s fiscal years
(SFY) 2003 and SFY 2004 (see Appendix 1). The audit also covered Department compliance
with applicable laws, regulations, and FWS guidelines; including those related to the collection
and use of hunting and fishing license revenues and the reporting of program income.

        In general, we found that the Department complied with applicable grant accounting and
regulatory requirements for administering its Federal Assistance programs. However, we found
user fees totaling $325,445 collected at shooting ranges were not reported as program income for
the hunter education grants, written policies and procedures were not developed nor
implemented to ensure proper reporting of in-kind contributions from volunteer hunter education
instructors, and approximately $7.45 million of equipment acquired with grant funds or license
revenues was not adequately controlled and tracked by fund source. In addition, the State of
Michigan needs to make a minor technical revision to its assent legislation to refer to the
Secretary of the Interior as the authority to promulgate rules and regulations instead of the
Secretary of Agriculture as the State's assent legislation currently states.

         FWS Region 3 provided a copy of the Department’s March 29, 2006 response to the draft
of this report on April 3, 2006. FWS Region 3 elected not to respond to the draft report and will
work with the Department to address any reported issues in the corrective action plan. We
summarized the Department responses after the recommendations and added our comments
regarding the responses. The status of the recommendations is summarized in Appendix 3.
        Please respond in writing to the findings and recommendations included in this report by
July 31, 2006. Your response should include information on actions taken or planned, target
dates, and titles of officials responsible for implementation.

      If you have any questions regarding this report, please contact Mr. Steven Moberly, Audit
Team Leader, at (916) 978-5650 or me at (703) 487-5345.

cc:   Regional Director, Region 3, U.S. Fish and Wildlife Service




                                              2
                                              Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife programs. The Acts allow FWS to reimburse the states up to 75 percent of the
eligible costs incurred under the grants. They also specify that state hunting and fishing license
revenues cannot be used for any purpose other than the administration of the state fish and game
department.

Objective

The objectives of our audit were to determine if the costs claimed under Federal Assistance
grants to the Department were incurred in accordance with the Acts and related regulations, FWS
guidelines, and the grant agreements; state hunting and fishing license revenues were used solely
for the Department’s fish and wildlife program activities; and program income was reported and
used in accordance with federal regulations.

Scope
The audit work included total reported outlays of approximately $53.8 million on 34 FWS grants
that were open during the SFYs 2003 and 2004 (see Appendix 1). We performed our audit at
Department headquarters in Lansing, Michigan. We also visited two operation service center
management unit offices, three field offices, and two state game offices (see Appendix 2). This
audit was performed to supplement, not replace, the audits required by the Single Audit Act of
1984, as amended, and the Office of Management and Budget Circular A-133.

Methodology
We performed our audit in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Accordingly, we included such tests of records and
other auditing procedures that we considered necessary under the circumstances. Our tests
included examining the evidence that supports selected expenditures charged to the grants by the
Department, interviewing Department employees to ensure that personnel costs charged to the
grants were supportable, and determining whether the Department used fishing and hunting
license revenues solely for fish and wildlife program purposes. To the extent possible, we relied
on the work of the State’s Auditor General to avoid duplication of audit effort. Based on our
review of the audit work of the State Auditors, we were able to reduce the amount of our internal
control testing and reduce the amount of audit work in the areas of payroll and fringe benefits
and other grant expenditures, drawdowns of federal funds, and hunting and fishing license fee

1
    As amended, 16 U.S.C. § 669 and 16 U.S.C. § 777, respectively.

                                                       3
revenues. We did not evaluate the economy, efficiency, or effectiveness of the Department’s
operations.

The audit team reviewed the financial management system for labor and license fees to identify
the internal controls over transactions recorded in those systems and to test the operation and
reliability of those controls. Based on the results of our initial assessments, we assigned a level
of risk to these systems. Based on the level of risk assigned, we selected a judgmental sample of
transactions for substantive testing. We also reviewed transactions related to purchases, other
direct costs, drawdowns of reimbursements, in-kind contributions, program income, equipment,
and other property. We did not project the results of the substantive tests to the total population
of recorded transactions.

Prior Audit Coverage
On February 5, 2003, we issued report No. 2003-E-0017, “Advisory Report on Costs Claimed by
the State of Michigan, Department of Natural Resources, Under Federal Aid Grants from the
U.S. Fish and Wildlife Service from October 1, 1995 Through September 30, 1997.” In addition,
the State’s Auditor General issued a Single Audit report on the Department’s financial schedules
for SFY 2002 and 2003. We followed up on all significant findings in the reports and
determined that they had been resolved prior to our review.




                                               4
                                   Results of Audit
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, FWS guidelines, and that state hunting and fishing
licenses revenues were used solely for the Department’s fish and wildlife program activities.

However, we also found that:

   8 Program Income. The Department did not report program income of $325,445 from
     user fees collected at shooting ranges or include estimated program income on its grant
     applications.
   8 In-Kind Contributions. The Department had not developed or implemented policies
     and procedures to ensure that volunteer instructors submitted adequate documentation to
     support the in-kind contributions claimed for hunter education instruction.
   8 Equipment Management. The Department did not (1) track by funding source,
     approximately $7.45 million of computers and other information technology equipment,
     (2) include the equipment in its inventory, or (3) perform annual physical inventories.
   8 Assent Legislation. Although the State of Michigan had adequate assent legislation in
     place, it needs to complete action on a minor, but necessary, revision initiated during our
     fieldwork.

Findings and Recommendations
We address each finding in detail below.

A. Program Income

   Federal Assistance grants Nos. W-120-S-40 and W-120-S-41 provided funds to directly
   support Michigan’s hunter education program including the operation and maintenance of six
   shooting ranges to expand the shooting opportunities through state-owned facilities. During
   SFYs 2003 and 2004, the Department collected $325,445 in user fees at the shooting ranges.
   However, we found that the Department did not report these revenues as program income on
   its Financial Status Reports (SF 269) or include an estimate of program income in its grant
   application. As such, the Department underreported program income associated with grant
   No. W-120-S-40 by $160,884 and grant No. W-120-S-41 by $164,561 during the 2-year
   period.

   The Code of Federal Regulations (43 CFR § 12.65) states, “Program income means gross
   income received by the grantee or subgrantee directly generated by a grant supported
   activity, or earned only as a result of the grant agreement during the grant period.”
   The regulations (43 CFR § 12.65 (g)) further state, “Ordinarily program income shall be
   deducted from total allowable costs to determine the net allowable costs. Program income
   shall be used for current costs unless the Federal agency authorizes otherwise. Program
   income which the grantee did not anticipate at the time of the award shall be used to reduce

                                             5
the Federal agency and grantee contributions rather than to increase the funds committed to
the project…When authorized, program income may be added to the funds committed to the
grant agreement by the Federal agency and the grantee… [or] used to meet the cost sharing
or matching requirement of the grant agreement.”

Department officials stated that they were not aware that these revenues needed to be
reported as program income. Consequently, the Department deposited the shooting range
receipts into the Park Improvement Fund instead of the Fish and Game fund because the
shooting ranges are located on Division of Parks and Recreation lands. According to
information provided by the Division, capital improvements to the shooting ranges had been
made over the years from various Department funds including the Park Improvement Fund.

Because this program income was not reported on the grant application or the SF 269s, FWS
did not have the opportunity to (1) authorize in advance whether the program income should
be used to reduce FWS and Department contributions or to enhance the grant’s program
objectives or (2) determine whether this income was used properly. However, since the
hunter education grants did not authorize program income to be added to the grant amount,
the net allowable costs eligible for cost sharing was overstated by $325,445.

Recommendations

We recommend that FWS:

1. Resolve the $325,445 in unreported program income for SFYs 2003 and 2004.

2. Notify the Department that, in the future, it should identify estimated shooting range fee
   revenues in its applications for Federal Assistance and report actual revenues as program
   income on the applicable SF-269s.

3. Document the amount and resolve the additional shooting range revenues collected
   subsequent to the period of our audit.

Department Response

Regarding the finding and three recommendations, the Department did not state either
agreement or disagreement but instead addressed how it proposed to resolve the unreported
program income identified. The Department stated that to resolve the $325,445 of
unreported program income identified in Recommendation 1, it recommends that FWS
recognize and allow it an “offset credit” for approximately $4.1 million of shooting range
operation and improvement expenditures since 1998. The Department can demonstrate with
supporting documentation that the expenditures were eligible and allowable, and were used
to meet and enhance the hunter education grant objectives. Regarding Recommendation 2
and 3, the Department stated that it has amended its SFY 2005 hunter education grant to
include and report the estimated program income ($156,000) generated at the shooting ranges
and proposed that FWS allow it a credit for the capital improvements made during the year
($160,049). For SFY 2006 the Department stated that it included the estimated revenue and


                                          6
   expenditure amounts in the hunter education grant and therefore has complied with
   Recommendations 2 and 3.

   OIG Comments

   The Department did not agree or disagree with the finding and recommendations but instead
   addressed how it proposed resolving the finding. However, since FWS elected not to
   comment on the finding and recommendations, we consider them unresolved. FWS should
   address the finding and recommendations in the corrective action plan.

B. In-Kind Contributions

   The Department used volunteer instructor hours to provide the State match (25 percent) on its
   hunter education program grants (Nos. W-120-S-40 and W-120-S-41). In our February 5,
   2003 advisory report (Report No. 2003-E-0017), we reported that the Department did not
   have “adequate, written policies and procedures to ensure proper accumulation, recording
   and reporting of in-kind contributions” associated with Federal Assistance grants. In
   addition, we noted that volunteers who performed work for the Department did not always
   sign the sheets supporting the hours claimed. This matter was reported as a management
   issue; therefore, the report did not contain any formal recommendations to correct the
   deficiency and the issue was not addressed in the Corrective Action Plan. We followed up
   on this issue and found that the Department had not developed or implemented written
   policies and procedures to ensure that adequate controls for the accumulation, recording, and
   reporting of in-kind contributions are in place and being followed.

   The regulations (43 CFR § 12.64(b) (6)) state, “Costs and third party in-kind contributions
   counting towards satisfying a cost sharing or matching requirement must be verifiable from
   the records of grantees and subgrantee or cost-type contractors…To the extent feasible,
   volunteer services will be supported by the same methods that the organization uses to
   support the allocability of regular personnel costs.” In addition, the Department Personnel
   Manual, Chapter 15.02, Section 1 states that “Time and Attendance” report forms must be
   signed by the employee before the timekeeper can process the form.

   A Department official stated they were not aware they needed to develop written policies
   describing the process used by the Law Enforcement Division to account for the volunteer
   instructor hours or that signatures were needed on time reporting sheets. We believe that the
   Department needs to strengthen the accounting controls and processes over in-kind voluntary
   contributions to its hunter education program, which were valued at approximately $500,000
   annually.

   Recommendation

   We recommend that FWS require the Department to develop written policies and procedures
   on the accounting methods and processes used to ensure the proper documentation,
   accumulation, recording, and reporting of in-kind contributions associated with its hunter
   education program; including a requirement that volunteer instructors sign their time sheets.


                                             7
  Department Response

  The Department agreed with the recommendation and provided documentation of the written
  policies and procedures that it had developed to better account for, document and report in-
  kind contributions associated with its hunter education program, including a requirement that
  volunteer instructors sign their time sheets.

  OIG Comments

  The Department agreed with the recommendation and provided information on the actions it
  has taken to develop written policies and procedures to better account for in-kind
  contributions associated with its hunter education program; however, since FWS elected not
  to comment on the finding and recommendation, we consider it unresolved. FWS should
  address the finding and recommendation in the corrective action plan.

C. Equipment Management

  The Department did not track by funding source approximately $7 million in computer-
  related equipment and approximately $2.1 million of non-computer equipment in its
  equipment inventory system. In addition, during SFYs 2003 and 2004, the Department of
  Information Technology (DIT) purchased on behalf of the Department, with Federal
  Assistance funds or license revenues, approximately $450,000 in computer-related
  equipment, but did not record the equipment in either the Department’s or DIT’s inventory
  system. Finally, the Department did not perform its required annual physical inventory of the
  $7.45 million ($7 million and $450,000) of computer-related equipment during SFYs 2003
  and 2004 to ensure that the equipment purchased with Federal Assistance funds or license
  revenues was properly controlled, inventoried, and used only for the purpose for which it was
  acquired. Accordingly, property acquired with Federal Assistance funds or license revenues
  could not be verified. Existing inventory practices are not adequate to safeguard equipment
  and to identify equipment that is lost, damaged, stolen, or no longer needed to support
  Restoration Program requirements.

  The Department’s Administrative Procedures, Series 04.02-00, requires the maintenance of
  inventory records for all Department-owned equipment with a value of $1,000 or more, and
  equipment that is susceptible to theft or has a long useful life. In addition, Series 04.02-03,
  states that each Property Location Unit Supervisor is responsible for conducting a complete
  physical inventory, certifying the results by April 1 each year, and reconciling the results
  with their lists and the Department Equipment Inventory System. In addition, the regulations
  (50 CFR § 80.19) require the states to maintain current and complete property records.

  In October 2001, the State of Michigan created DIT by Executive Order No. 2001-3, which
  consolidated authority over computer operations and information technology for all State
  agencies including the Department. However, neither during nor subsequent to the transition
  did the Department ensure that issues of compliance with applicable federal and state laws
  and regulations related to the authority transferred were resolved. Also, the Department did
  not develop or revise its policies and procedures to reflect the new operational aspect and
  authorities created by the Executive Order. Finally, according to Department officials, the

                                             8
Department has not identified the funding source for $2.1 million of non-computer-related
equipment because this equipment was for the most part purchased prior to a 1999
conversion to a new equipment inventory system.

We concluded that the Department does not have adequate control over approximately $7.45
million of computer-related equipment purchased with either Federal Assistance funds or
license revenues and $2.1 million of non-computer-related equipment purchased prior to
fiscal year 1999. In addition, there is a high risk that the computer-related equipment could
be diverted to uses other than the Department’s fish and wildlife activities.

Recommendations

We recommend that FWS require the Department to:

1. Take immediate action to inventory, account for, and identify the funding source for all
   computer-related equipment purchased by or transferred to DIT that was procured in
   whole or in part with either Federal Assistance funds or license revenues since the
   creation of DIT.

2. Develop policies and procedures to describe the new operational arrangements and
   controls to ensure that computer-related equipment purchased with Federal Assistance
   funds or license revenues is used only for fish and wildlife program purposes.

3. Document that DIT is aware of and will comply with federal and state laws and
   regulations related to equipment purchased with either Federal Assistance or license
   receipt funding.

4. Identify the funding source for the non-computer-related equipment for equipment with a
   fair market value of $5,000 or more.

Department Response

The Department agreed with each of the recommendations and stated that it “will comply.”
Specifically, regarding Recommendation 1, the Department stated that it and DIT are
currently in the process of converting computer equipment data from the Department’s and
DIT’s databases into a new Department computer equipment database. Once the conversion
is completed the Department will confirm the equipment at each location and ensuring
inclusion in its annual physical inventory certification process. The Department anticipates
that this will be completed by September 30, 2007. Regarding Recommendation 2, the
Department stated that it will develop written policies and procedures as part of the new
process for tracking and inventorying computer-related equipment. The Department
anticipates that this will be complete by September 30, 2007. Regarding Recommendation 3,
the Department stated that it will provide DIT with the applicable state and federal laws and
regulations related to equipment purchased with Federal Assistance or license revenues and
will request DIT to confirm its understanding of those laws and regulations. The Department
anticipates that this will be complete by June 30, 2006. Finally, regarding Recommendation
4, the Department stated that it has already taken action to identify all non-computer-related

                                          9
   equipment in its equipment database without a funding source and are in the process of
   determining which items have a fair market value of $5,000 or more and are researching
   these items to determine the funding source. The Department anticipates that this will be
   complete by September 30, 2007.

   OIG Comments

   The Department agreed with the recommendations and provided information on the actions it
   has taken or planned to address the recommendations; however, since FWS elected not to
   comment on the finding and recommendations, we consider them unresolved. FWS should
   address the findings and recommendations in the corrective action plan.

D. Assent Legislation

   The State of Michigan enacted Act 451 of 1994, Sections 324.40501 and 324.47701, to meet
   the requirements of the Restoration Acts to codify into State law a provision prohibiting the
   diversion of revenues from hunting and fishing licenses for any purpose other than the
   administration of the State’s fish and game department. However, we identified a need for a
   minor technical revision in Section 324.40501, to refer to the Secretary of the Interior as the
   authority to promulgate rules and regulations instead of the Secretary of Agriculture as the
   Act currently states. During our fieldwork, Department officials agreed that a revision
   should be made and initiated action to have the State amend the Act. Since the actions
   initiated by the Department had not been completed by the end of our fieldwork, we believe
   that FWS should ensure that this action is completed.

   Recommendation

   We recommend that FWS ensure that the Department’s proposed action to amend the State’s
   Act of 1994, Section 324.40501, is completed.

   Department Response

   The Department stated that it has forwarded the amended language for the Act’s technical
   revision to the Governor’s Legislative Affairs Office so it can be added to an upcoming
   hunting and fishing bill. The Department anticipates that the action will be completed by
   July 1, 2006.

   OIG Comments

   The Department’s action appears to adequately address the recommendation; however, since
   FWS elected not to comment on the finding and recommendation, we consider the
   recommendation unresolved. FWS should address the finding and recommendation in the
   corrective action plan.




                                             10
                                                         Appendix 1


MICHIGAN DEPARTMENT OF NATURAL RESOURCES
  FINANCIAL SUMMARY OF REVIEW COVERAGE
 OCTOBER 1, 2002 THROUGH SEPTEMBER 30, 2004

  Grant No.         Grant Amount      Reported Outlays

  F-62-D-16              $7,293,872       $6,522,163
  F-62-D-17               6,897,824        6,746,680
  F-80-R-4                  863,840          866,546
  F-80-R-5                  622,353          745,767
  F-81-R-4                3,414,997        3,911,137
  F-81-R-5                2,920,471        3,970,008
  F-82-R-3                  192,444          120,457
  F-82-R-4                  168,135          121,770
  F-83-B-1                8,020,000        7,903,126
  F-84-D-1                  100,200          100,200
  F-84-D-2                  200,400          195,823
  F-84-D-3                  200,460          200,459
  F-85-D-1                  100,200           32,361
  F-86-B-1                1,552,711
  W-120-S-40              1,799,180        1,823,238
  W-120-S-41              1,863,109        1,868,490
  W-140-D-8                 775,500          431,383
  W-140-D-9                  60,000
  W-140-D-10                601,380          203,360
  W-140-D-11                 60,000
  W-141-D-5               5,480,807        4,001,296
  W-141-D-6               5,390,355        4,328,477
  W-142-L-6                 212,800          132,329
  W-142-L-7                 241,648          119,190
  W-143-P-6                 807,586          469,486
  W-145-L-3               1,252,500          101,093
  W-145-L-4               5,000,000
  W-147-R-1               7,188,484        4,524,654
  W-147-R-2               7,005,572        4,053,253
  W-147-R-3               6,595,672
  W-148-M-1               3,217,000
  W-149-P-1               2,645,000
  FW-4-C-14-F               176,373         138,027
  FW-4-C-15-F               187,870         139,519
                        $83,108,743     $53,770,292




                   11
                                                                 Appendix 2


MICHIGAN DEPARTMENT OF NATURAL RESOURCES
               SITES VISITED

                          Headquarters
        Department of Natural Resources, Lansing, Michigan


  Operation Service Center, Management Unit, and Field Offices
                      Allegan Field Office
                       Baldwin Field Office
    Cadillac Operations Service Center Management Unit Office
   Plainwell Operations Service Center Management Units Office
                        Paris Field Office


                        State Game Areas
                             Allegan
                         Pentwater River




                              12
                                                                                Appendix 3

          MICHIGAN DEPARTMENT OF NATURAL RESOURCES
                   STATUS OF AUDIT FINDINGS
                    AND RECOMMENDATIONS

Recommendations               Status                          Action Required

A.1, A.2, A.3, B.1,   Findings Unresolved and   Provide a corrective action plan that
C.1, C.2, C.3, C.4,   Recommendations Not       identifies the actions taken or planned to
D.1                   Implemented               resolve the findings and implement the
                                                recommendations, as well as the basis for
                                                any disagreement with the recommendation.
                                                The plan should also include the target date
                                                and the official responsible for
                                                implementation of the recommendation. If
                                                the recommendation is not implemented at
                                                the end of 90 days (after July 31, 2006), it
                                                will be referred to the Assistant Secretary for
                                                Policy, Management and Budget for
                                                resolution and/or tracking of implementation.




                                          13
